■<h&

4
LEGAL MAIL
Provided to Wakulla Cl

No.

AUG 1 0 2021
IN THE
SUPREME COURT OF THE UNITED STATES

for mailing

MICHAEL EDMONDSON,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS

“JOINT

APPENDIX”

Michael Edmondson
pro se - D.C. # D27445
Wakulla C. I.
110 Melaleuca Drive
Crawfordville, FL 32327
(813) 900-8471
I

<■

TABLE OF CONTENTS
Page Number
APPENDIX A: Decision of the U.S. Court of Appeals
For the Eleventh Circuit..................

1

APPENDIX B: Decision of the U.S. District Court of Florida

2

APPENDIX C: Decision of the U.S. Court of Appeals For Rehearing

3

APPENDIX D: Decision for the District Court of Appeals for the
Second District of Florida...................................

4

II

<>
V

'-i*

APPENDIX A- Decision of the
U.S. Court of Appeals For The Eleventh Circuit

-1 -

If

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 1 of 11

<<?

-[DO-NOT-EUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12983
Non-Argument Calendar
D.C. Docket No. 8:18-cv-00287-WFJ-TGW

MICHAEL JOSEPH EDMONDSON,
Petitioner-Appellant,
versus
ATTORNEY GENERAL,
SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida
v

(April 23,2021)

Before WILSON, JILL PRYOR, and LUCK, Circuit Judges.
PER CURIAM:
Michael Edmondson appeals the district court’s denial of Jiis 28 U.S.C.
section 2254 petition. He argues that the district court erred because the state

i

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 2 of 11

appellate-court unreasonably applied Faretta v. California, 422 U.S. 806 (1975) to
conclude that the state trial court did not violate his right to self-representation. We
disagree and affirm the denial of Edmondson’s habeas petition.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY
In 2013, Edmondson was charged with a slew of offenses after he was caught
burglarizing cars in a parking garage.1 The state trial court found that Edmondson
was indigent and appointed counsel to represent him.
At a pretrial hearing, Edmondson told the state trial court that he wanted to
fire his attorney. The trial court held a hearing on Edmondson’s request and heard
from Edmondson and his appointed attorney. Edmondson wanted a new attorney,
he explained, because the evidence had been “tampered with” but his attorney “[did]
not care” and was not investigating his case. The state trial court ruled that
Edmondson did not have a legitimate reason to discharge his appointed counsel. The
state trial court told Edmondson that he could hire an attorney or choose to represent
himself, although the latter option “would be a huge mistake, and we can go into that
later if we need to.” Edmondson replied that he did not have the funds to hire a
private attorney. Edmondson did not request to be allowed to represent himself.

1 Specifically, Edmondson was charged with burglary of an occupied structure, attempted
caijacking, four counts of burglary of an unoccupied conveyance, resisting an officer with
violence, battery on a law enforcement officer, and felony battery.
2

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 3 of 11

~"Instead7iie_said_tlTEr“there-is no way Pm going to be able to represent myself”
because “[t]he Public Defender[’]s Office has all my whole case.”
Edmondson proceeded to trial. Before jury selection, Edmondson’s counsel
told the state trial court that Edmondson wanted to fire him. The state trial court
questioned Edmondson to learn why.2 Edmondson said that he previously tried to
fire his attorney and still did not feel like his attorney was acting in his best interest.
Edmondson insisted that “I will do it on my own if I have to.” The state trial court
asked “[d]o what on your own?” Edmondson clarified that he would “[g]o to trial.”
Edmondson reiterated that his attorney was refusing to help him and did not care
that the police had tampered with the evidence. The state trial court ruled that it
would not discharge Edmondson’s attorney. Edmondson then asked, “So does that
mean I’m stuck with him?” The state trial court explained that Edmondson was “not
stuck with him” and said that his attorney had “been a lawyer a long time,” had “tried
' many cases,” and was “very competent.” Edmondson did not say anything in
response to this and his trial continued.
The jury ultimately convicted Edmondson of burglary of an occupied
structure, attempted motor vehicle theft, four counts of burglary of a conveyance,

2 The judge who presided over the trial was not the same judge who had heard
Edmondson’s complaints about his attorney at the pretrial hearing.
3

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 4 of 11

resisting—an-offieer-Avitli-violence—battery-on-a-Iaw^enforcement^offrcer, and
misdemeanor battery. He was sentenced to thirty years in prison.
Edmondson appealed his conviction to the state appellate court, arguing that
the trial court erred by failing to conduct a Faretta inquiry. The state appellate court
affirmed his conviction in an unelaborated per curiam decision.
In 2018, Edmondson filed in the district court a section 2254 petition for a
writ of habeas corpus. Edmondson argued that the state trial court violated his Sixth
and Fourteenth Amendment rights by not conducting a Faretta hearing after he said
that he would “do it on [his] own if [he] ha[d] to” right before trial.3
The state opposed Edmondson’s petition. The state argued that Edmondson
had not unequivocally requested to represent himself and had only sought substitute
counsel. Thus, the state argued, Edmondson could not show that the state appellate
court’s ruling was an unreasonable application of Faretta.
The district court denied Edmondson’s habeas petition. The district court
explained that a Faretta hearing is necessary only where a defendant makes a “clear
and unequivocal” request for self-representation. Based on the state trial court
record, the state appellate court could have found that Edmondson had not made an

3 Edmondson also alleged that: (1) the state trial court erred by not conducting a hearing
pursuant to Nelson v. State. 274 So. 2d 256 (Fla. Dist. Ct. App. 1973); (2) the prosecutor failed to
disclose favorable evidence and knowingly presented false evidence; and (3) his trial counsel was
ineffective. Edmondson did not seek a certificate of appealability as to these claims.
4

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 5 of 11

unequivocal request for self-representationTThe district court concluded, and its
decision was not an unreasonable application of Faretta.
Edmondson appealed and we granted his motion for a certificate of
appealability on the Faretta issue: “[w]hether the district court erred by denying
relief as to [Edmondson’s] 28 U.S.C. [section] 2254 claim, pursuant to [Faretta]?”
STANDARD OF REVIEW
We review de novo a district court’s denial of a section 2254 petition. Smith
v. Comm’r. Ala. Dep’t of Corrs.. 924 F.3d 1330, 1336 (11th Cir. 2019). A district
court may not grant a section 2254 petition unless the state court’s adjudication of
the claim “was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States,”
or “was based on an unreasonable determination of the facts in light of the evidence
presented in die State court proceeding.” 28 U.S.C. § 2254(d)(1), (2).
Our section 2254(d) review focuses on the “last reasoned” state court
decision. See McGahee v. Ala. Dep’t of Corrs.. 560 F.3d 1252,1261 n.12 (11th Cir.
2009). The question is not whether we believe that decision was “incorrect” but
whether the decision “was unreasonable—a substantially higher threshold.” Schriro
v. Landrigan. 550 U.S. 465, 473 (2007). A decision is reasonable “so long as
‘fairminded jurists could disagree’ on the correctness of the ... decision.” See
Harrington v. Richter. 562 U.S. 86, 101 (2011) (citation omitted). “[E]ven a strong
5

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 6 of 11

xase—forrrreKef-^does—not—mean—the—state—court’-s—contrary—conclusion—was
unreasonable.” Id To be entitled to relief, “a state prisoner must show that the state
court’s ruling on the claim being presented in federal court was so lacking in
justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Id. at 103.
Where the last reasoned state court decision “is unaccompanied by an opinion
explaining the reasons relief has been denied,” we presume “that the state court
adjudicated the claim on the merits in the absence of any indication or state-law
procedural principles to the contrary.” Id. at 98-99. “Our task in these situations is
to review the record before the [state court] to ‘determine what arguments or theories
supported or, as here, could have supported, the state court’s decision.’” Hittson v.
GDCP Warden. 759 F.3d 1210,1232 (11th Cir. 2014) (quoting Harrington. 562 U.S.
at 102). Thus, “[wjhere a state court’s decision is unaccompanied by an explanation,
the habeas petitioner’s burden still must be met by showing there was no reasonable
basis for the state court to deny relief.” Harrington. 562 U.S. at 98.
DISCUSSION
Edmondson argues that the district court erred in concluding that the state
appellate court did not unreasonably apply Faretta. He made a clear and unequivocal
request to represent himself, he maintains, when he told the state trial court that “I
will do it on my own if I have to”—“it” being “[g]o[ing] to trial.” Edmondson argues
6

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 7 of 11

That this statement, coupled with his desire to “fire” his attorney, was unambiguous
and required a Faretta inquiry.
The law governing a Faretta claim is settled. A court is required “to conduct
a ‘Faretta hearing,’ at which a defendant is made aware of the dangers and
disadvantages of self-representation,” where a defendant makes a “clear and
unequivocal assertion of a desire to represent himself.'” Gill v. Mecusker. 633 F.3d
1272, 1293 (11th Cir. 2011) (citation and internal quotation marks omitted). An
unclear or equivocal request will not do. Because “shrewd litigants can exploit this
difficult constitutional area by making ambiguous self-representation claims to
inject error into the record, this Court has required an individual to clearly and
unequivocally assert the desire to represent himself.” Cross v. United States. 893
F.2d 1287,1290 (11th Cir. 19901: see also Dorman v. Wainwrieht. 798 F.2d 1358,
1366 (11th Cir. 1986) (“[Petitioner must do no more than state his request, either
orally or in writing, unambiguously to the court so that no reasonable person can say
that the request was not made.”).
In Gill, the defendant became unhappy with his appointed counsel and “filed
a motion for the appointment of substitute counsel.” 633 F.3d at 1275. After this
motion was denied, the defendant filed a “motion to dismiss appointed counsel and
to allow the defendant to represent himself pro se.” Id. This motion “reiterat[ed] all
the allegations made” in the motion for substitute counsel and requested the
7

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 8 of 11

between
“represent[ing] himself’ or going to trial with unprepared counsel. Id At a hearing
on die motion, the defendant asked to represent himself because his counsel was
unprepared. Id. at 1277. The defendant also said that he was in the “process of
trying to retain private counsel” and would request a continuance once he had
retained counsel. Id.
We concluded that these facts “demonstrate[d] that Gill’s request was
equivocal and was not sufficient to invoke Faretta.” Id. at 1296. His requests were
equivocal, we explained, because he “consistently coupled his request to represent
himself with an expression of his preference for representation by a different
lawyer.” Id. “Specifically, Gill made clear to the trial court that he did not wish to
proceed without counsel; rather, he wished to proceed with retained counsel....”
Id. at 1295. Because “Gill’s invocation of his right to self-representation was
equivocal,” we affirmed the district court’s denial of habeas relief. Id. at 1296.
Similarly, the defendant in Cross stated that “I want to be allowed to represent
myself through this whole trial.” 893 F.2d at 1291. We explained that this statement
was—in a vacuum—“sufficiently clear and unambiguous” to require a Faretta
inquiry. Id. But this statement was not “the only evidence on the record.” Id. The
defendant clarified that he was not “talking about getting up and making [m]otions
and everything else,” and he merely wanted to address the jury during opening
8

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 9 of 11

""statements and to "make statements to the Court?’~ldrTIns^x)mDellmg evidence”
showed, we concluded, “that [the defendant] desired to act as co-counsel, rather than
proceed pro se.” Id. Thus, there was no need to conduct a Faretta hearing. Id.
We provide one more illustration. In Raulerson v. Wainwrieht. 732 F.2d 803,
808 (11th Cir. 1984), the defendant asked to be allowed to act as his own co-counsel.
After the state trial court denied his motion, the defendant moved to represent
himself. Id The state trial court then briefly allowed the defendant to act as co­
counsel but reversed course after the Florida Supreme Court issued a decision
disallowing “hybrid” representation.

Id.

Several months later, the defendant

renewed his request for self-representation but walked out of the courtroom during
the Faretta inquiry. We concluded that the defendant had waived his right to self­
representation because, by voluntarily leaving during the hearing, he did not pursue
his Faretta rights “diligently.” Id.
Here, at the pretrial hearing where Edmondson first told the state trial court
that he wanted to fire his lawyer, he described how his attorney did not care that the
evidence in his case had been tampered with. After Edmondson’s request for
substitute counsel was denied, Edmondson said that he could not afford a private
attorney. As for self-representation, he stated that “there is no way I’m going to be
able to represent myself.” Right before Edmondson’s trial started, he again tried to
fire his lawyer because he “felt like [counsel] was working against [him] in this case”
9

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 10 of 11

and-did-not^are:that-the-state-had-ailegedlytampered'witlTthe evidence. WHenThe
state trial court again denied the motion to discharge appointed counsel, Edmondson
protested that his attorney had “just [gotten] [his] case” and was “not helping [him]
one bit.” And after saying that he would go to trial on his own “if [he] [had] to,”
Edmondson once more complained about his appointed attorney because counsel
“refuse[d] to help [him] or listen to [him]” and did not care about the alleged
tampering in his case.
Like in Gill Edmondson’s isolated comment about going to trial on his own
“if’ he had to was “far from a clear statement of [his] desire or intent to proceed
without counsel.” See 633 F.3d at 1295. Like in Gill it was qualified and therefore
equivocal. And like in Cross. Edmondson’s “if-he-had-to” statement was not “the
only evidence on the record.” See 893 F.2d at 1291. It was instead sandwiched
between Edmondson’s complaints about his lawyer. His efforts to secure substitute
counsel and prior concession that “there is no way I’m going to be able to represent
myself’ were “compelling evidence” that Edmondson had not made a “sufficiently
clear and unambiguous” invocation of his right to self-representation. See id. And
Edmondson kept trying to fire his attorney after he made this solitary remark, rather
than unambiguously letting the state trial court know that he wanted to go pro se;
thus, like in Raulerson. he did not pursue the matter of self-representation
“diligently.” See 732 F.2d at 809.
10

t
S'

*

■

USCA11 Case: 20-12983

Date Filed: 04/23/2021

Page: 11 of 11

■

In sum, a finding that Edmondson did not clearly and unequivocally assert a
desire to represent himself “could have supported[ ] the state court’s decision.” See
Harrington. 562 U.S. at 102. The district court therefore did not err in concluding
that the state appellate court’s rejection of Edmondson’s Faretta claim was not an
unreasonable application of clearly established federal law. See Gill. 633 F.3d at
1296. Simply put, Edmondson failed to meet his burden of “showing there was no
reasonable basis for the state court to deny relief.” See Harrington. 562 U.S. at 98.
AFFIRMED.

11

A*

APPENDIX B- - Decision of the
U.S. District Court of Florida
r

t

-2-

mw EMJMFJWRGW DQDcraa^49Fil«l«/OI^2(l»®e 3Ba|(fiD6
1536

v

tJ'N ITED~STATES~DI STRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
MICHAEL JOSEPH EDMONDSON,
Petitioner,
Case No. 8:18-cv-287-T-02TGW

v.
SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS,
Respondent.

ORDER DENYING PETITION
Petitioner brings this claim under 28 U.S.C. 2254 for relief from judgment
and prison sentence. He is presently incarceration in the Florida State prison
system. The Court determines no hearing is necessary and denies the petition.
The case against Petitioner involved two eyewitnesses, one of whom saw
Petitioner breaking into and stealing from parked cars, after burglary into a locked
garage where they were parked. This witness and Petitioner then had a scuffle and
the witness had one tooth knocked out, and one cracked, during the tussle. (A3
131-97, 212-16, 222).1 When the police arrived, Petitioner resisted and struck
them. (A3 123-29,202-03,244-47,258,273). Petitioner made admissions to the

The underlying record is found at Docket 11. The citation is to the record volumes so labeled
and found there, i.e. A1 (first appellate volume); Cl (first collateral volume).

5

■

Case ®.m<wmMI^WF3-T<&W DBnMim®tnM9 Fil®il©a’«2W2®^e 2^607 <&Tapffi&(i|4H9
1537

inculpatory phone calls~admitting to car burglaryThat were
taped from the jail telephone. (A3 284-89). His fingerprints were found on the
burgled cars and on an item taken from one burgled car. (A3 238-39). Petitioner
was convicted at a jury trial and sentenced to a total of 30 years incarceration2 as a
prison release reoffender and based on other sentencing enhancements due to his
extensive prior record.3
The Petitioner brings four grounds for relief. Respondent agrees the Petition
is timely. Doc. 9 at 24-25.
Ground One: Petitioner asserts that the trial court erred by failing to
conduct an adequate “Nelson inquiry” under Nelson v. State, 274 So.2d 256 (Fla.
4th DCA 1973). Petitioner contends this violated the Sixth and Fourteenth
amendment to the U.S. Constitution, and impaired his constitutional right to
proceed without counsel when he voluntary elected to do so. He argues the trial
court, Judge William Fuente, relied upon a prior ruling of the administrative judge
in this regard, Chief Judge Ronald Ficcarotta. Petitioner states “[bjecause the trial
court relied on a prior ruling and did not conduct an adequate inquiry after Mr.

2 Counts of conviction at trial were: 1. burglary of occupied structure; 2. attempted grand theft
motor vehicle (lesser of carjacking the victim); 3-6. burglary of unoccupied conveyance (3
cars); 7. obstructing an officer with violence; 8. battery on law enforcement officer.; and 9.
battery on the witness (lesser of felony battery).
3 Enhancements also included violent career criminal and habitual violent felony offender. (A2
286; Doc. 1-1 at 36). Before this current case, Petitioner had seven prior felony convictions from
three counties, dc.state.fi.usc/offender search (last consulted 7/1/2020).
2
6

f'

Case

[d)j[»>Mr;i;

MWFJ-TGW DBmnonsralrM9 FWGUffiNmXMmbe 3=^608 <5fagfefE&d|4ltB)
1538

Edrnpnds.o.nlsj:enewed-r-€quest-tf)-dischargexounseirtTie trial court failed to follow
the mandates of Nelsonl” Doc 1 at 16.
The Nelson case discusses the commonsense Sixth Amendment issue of
what to do when, on the verge of trial, the defendant seeks to discharge his courtappointed counsel for alleged incompetence. The opinion is not new law or a legal
doctrine, but simply states that the trial court should make inquiry, and determine if
there are reasonable grounds to consider counsel incompetent or unprepared. If so,
appointed counsel should be replaced. And if not, counsel should not be replaced
on those grounds alleged. See 274 So.2d at 257. And that is precisely what
happened here.
The record shows that the Chief Judge made a proper inquiry as to appointed
counsel’s preparation, readiness, and competence. Petitioner contended that a
security tape was tampered with or suppressed by the State, and his lawyer was not
competent for failing to address this. The Chief Judge made full inquiry on the
merits, on October 24, 2013. (A5, 314-19). After this inquiry of the State,
Petitioner, and Petitioner’s lawyer, the Chief Judge made a finding, quite proper
based on this record, that “Well, Mr. Edmondson, I find that your reason to request
discharge or dismissal of your appointed counsel is not a legitimate reason .... He
can’t create tapes that don’t exist. So you certainly have the right to discharge him.
If you choose to do so you can then hire any lawyer you want to in the yellow
3
7

•»s

'

DDncrararatnl^g Filtfai©a,/<Dffi«2W2®ai^e 4=tefgfe09 <Ffapffiii$4in
1539

pages or you can choose_tQ-r.epresent-v0Ufself-7^~rT”~fA5~31~9~21V Petitioner then
responded that he did not have funds to hire a lawyer and “there is no way I’m
going to be able to represent myself.” Id. This ruling of the Chief Judge was then
expressly adopted by the trial division judge five days later when the trial occurred.
(A2 4 - 5). Ground One fails on the factual merits.
Respondent also correctly notes, independent of the merits, that Ground One
is not exhausted. When this “Nelson claim” was presented to the state courts it
was not squarely presented as a federal constitutional claim.4 The Eleventh Circuit
has noted, “[a]s to [Petitioner’s] Nelson claim, the district court correctly
concluded that it was not subject to federal habeas review because it was based on
state law.” Ortiz v. Sec’y, Fla. Dep’tofCorr., 2017 WL 3380604, *5 (llthCir.
Jan. 20, 2017).
Ground Two: The second ground alleges that the trial court failed to
conduct a proper Faretta hearing. Faretta v. California, 422 U.S. 806 (1975).
Doc. 1 at 17. The record shows that when he objected about his lawyer before the
trial division judge, during the colloquy with the trial court Petitioner at one point
stated in part:

4 Nelson is a Florida appellate-level case, and in support of this claim below on direct appeal
Petitioner cited seven Florida appellate cases, and no federal cases. He did not argue or present
federal or U.S. constitutional law but rather presented it as a procedural violation under the
Florida cases. See Doc. 1-1 at 14-18.
4
8

Case

M-WF3-TGW Q&oam®e«til229 FiNeifeBI7iMM®OBSge &>ai$daOI3&#@IB^D
1540

■v

I was a victim in this case and [the State] are trying to hide a conspiracy
and I’ve uncovered a conspiracy. And here we are today, sir, because
they do not want this brought to light. [My lawyer’s not wanting to
help me uncover it, sir. I will do it on my own if I have to.
The Trial Judge: Do what on your own?
Petitioner: Go to trial. This is not right. He refused to help me or listen
to me. I’m telling him, they are [tampering with] my evidence. He
doesn’t care. How do you not care that people are tampering with my
evidence?
The Trial Judge: Did you tell all this to [Chief] Judge Ficarrotta?
Petitioner: Yes, I did, sir.
The Trial Judge: I am going to abide by the ruling ....
Petitioner: So does that mean I am stuck with him?
The Trial Judge: You are not stuck with him. He’s going to represent
you. He’s been a lawyer for a long time, he’s tried many cases in front
of me. He is a very competent lawyer ....
(A2, 5-7).
During the middle of trial, Petitioner voiced a complaint to the trial judge
about his lawyer, his lawyer’s competence, and a failure to sever counts. Doc. 1-1
at 7-8. During this mid-trial colloquy Petitioner did not ask for, or mention, a
request to proceed pro se. Id.
The obligation to conduct a Faretta hearing is triggered by the defendant’s
“clear and unequivocal” assertion of a desire to represent himself. See Cross v.
United States, 893 F.2d 1287, 1290 (11th Cir. 1990). The State argued on appeal,
and the appellate court implicitly agreed by its per curiam affirmance, that
Petitioner did not make a sufficient, unequivocal request in the trial record to
5
9

Case

57-WFJ-TGW QItoaire®i0t229 FilEifleffltfMaWiHfj OEQge 6’arfj4CLll0lHl@IBafcf6IB>
1541

represent himself Thus Faretta was not triggered. This is correct, and there is no
other invocation of self-representation or request to proceed pro se in this record.
Moreover, even ifthe above passage was sufficient to trigger a Faretta
inquiry, there is no prejudice. There would be no change in outcome had
Petitioner represented himself. More likely, the outcome would have been worse,
with convictions on the greater charges rather than lesser included offense. See
supra footnote 2. Given the facts of this case and evidence presented, including
Petitioner’s own voice on jail calls confessing to the car burglaries, there is zero
chance that a Faretta inquiry and self-representation would have changed any
outcome for the better.
Ground Three: Petitioner states the prosecution failed to disclose favorable
evidence to the defense, in violation of the Fourteenth amendment to the U.S.
Constitution. Doc. 1 at 18. Petitioner stated that the State suppressed or concealed
a security tape. In this regard Petitioner asserts the State provided a false location
of where the tussle occurred with the witness, with the State falsely asserting the
tussle was in a location off-camera. Id.
On the merits, this issue has nothing to do with the 30-year burglary
sentence, the “harshest” conviction by far. Petitioner confessed to the car
burglaries on the jail calls. In any event, there is no evidence in this record, other
than Petitioner’s contention, that any tape of the “tussle” existed. Prior to trial the
6
10

mmmOBfige 8>a)dja(13 ©&g8IBcflg0B>

Case ffi:l®HDii^O(D12®7-WFJ-T(SW □2taaim®©it)t229 FilEiileBF

1543

-he-did-not-appeaiT-Docr1_at‘6T5
Ground Four: Petitioner’s final ground asserts ineffective assistance of
counsel. He alleges that trial counsel failed to present photographs from his
injuries caused in the fight with the victim. He also claimed the police injured him.
Doc. 1 at 20. This issue was raised in the 3.850 petition unsuccessfully, Doc. 1-1
at 46^49, but no appeal was taken. Thus the matter is unexhausted, with no
grounds offered to excuse or forego the exhaustion defalcation. See Bailey, 172
F.3d at 1303.
On the merits, the ground is without substance. There is no likelihood of a
different verdict if photos were shown of Petitioner’s relatively minor injuries from
the fight with the witness and his arrest. The witness and arresting police officers
testified as to the Petitioner’s state at the time. Petitioner did not testify.
At the 3.850 hearing Petitioner testified that he did not discuss introduction
of the photographs with his trial counsel before or during trial, and when he asked
counsel after trial about the photos, counsel told him he did not introduce the
photos because Petitioner did not take the stand. Doc. 1-1 at 47. Petitioner’s trial
counsel also testified at the 3.850 hearing, stating that he did discuss use of the
photographs with Petitioner, and this included a discussion that if Petitioner did not

5 Petitioner’s 3.850 proceeding was resolved by final order denying same on January 3, 2018.
Doc. 1-1 at 49. He filed the instant federal 2254 habeas petition one month later.
8
12

■f
\±-J

Case ®l®-csiKM2S7-WFJ-TGW Q5xaanin®ratit229 FilEiflefflf?(ifKMm'ti OBQge J?axfjhCL4
1544

Bafcffef 6>

.testify.,.using_the.photos.to-sho-W-how-the-injuries-were-aGtually-Gaused-woyld-beproblematic. Id. at 48. The 3.850 Circuit Judge credited the testimony of
Petitioner’s counsel, and found that counsel “and Defendant did discuss the
photographs prior to trial and specifically discussed the problem with entering the
photographs without Defendant’s testimony .... The Court finds that without
Defendant’s testimony the photographs would have had no or little evidentiary
value. As such, the Court finds Defendant has not established deficient
performance or prejudice.” Doc. 1-1 at 49. This finding is well-based in the
evidence and worthy of appropriate deference.
Certificate of Appealability
“The district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant,” and if a certificate is issued, “the
court must state the specific issue or issues that satisfy the showing required by 28
U.S.C. § 2253(c)(2).” Rule 11(a), Rules Governing Section 2254 Proceedings for
the United States District Courts; see Miller-El v. Cockrell, 537 U.S. 322, 336
(2003). To merit a CGA, Petitioner must show that reasonable jurists would find
debatable both the merits of the underlying claims and the procedural issues he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473,484
(2000); Eagle v. Linahan, 279 F.3d 926, 935 (11th Cir. 2001). Because he fails to
show that reasonable jurists would debate either the merits of the claims or the
9
13

f

(CaseMffl-o^mm'.\ I7-WOTGW D0omroffitn249 Fil<fdl^n®!GZy2®2(§e 3l0a^eUD5 (MapK&gdin
t
1545

procedural issues.J&etitfoner-is-not-entitled~to~e ither a CPA or leave to appeal in
forma pauperis.
Accordingly, a certificate of appealability is denied. Leave to appeal in
forma pauperis is denied. Petitioner must obtain permission from the circuit court
to appeal in forma pauperis.
Conclusion
The Court denies the Petition with prejudice. Doc. 1. The Clerk is directed
to enter judgment accordingly, terminate any pending motions, and close the file.

DONE AND ORDERED at Tampa, Florida, on July 6, 2020.
A/ William F. Juris.______________
WILLIAM F. JUNG
UNITED STATES DISTRICT JUDGE

COPIES FURNISHED TO;
Counsel of Record
Petitioner, pro se

10
14

03380881

7WFB3F3WJ BooMneintt 29 FilelidlBSiE^OHfegeHa^ieRrfgeCPaggff)
1546

miTED^ST-A-TESDISTRICTCOURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
MICHAEL JOSEPH EDMONDSON,
Petitioner,
Case No: 8:18-cv-287-T-02TGW

v.
ATTORNEY GENERAL and
SECRETARY, DEPARTMENT OF
CORRECTIONS,
Respondents.

JUDGMENT IN A CIVIL CASE
IT IS ORDERED AND ADJUDGED that judgment is entered against the Petitioner.
ELIZABETH M. WARREN,
CLERK
s/B. Sohn, Deputy Clerk

15

•f
>•

5

APPENDIX C: - Decision of the
U.S. Court of Appeals For Rehearing
-3-

t

USCA11 Case: 20-12983

*

Date Filed: 06/17/2021

Page: 1 of 1

.'A

INJTHETJNITED-STATES'COURTT)FLAPPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12983-DD
MICHAEL JOSEPH EDMONDSON,
Petitioner - Appellant,
versus
')

ATTORNEY GENERAL,
SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondents - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONS FOR REHEARING AND PETITION/SI FOR REHEARING EN BANC
Before WILSON, JELL PRYOR, and LUCK, Circuit Judges.
PER CURIAM:
"Petition for rehearing and suggestion for rehearing en banc" CONSTRUED as the Petition for
Rehearing En Banc is DENIED, no judge in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)

ORD-46

■#

%

APPENDIX D: - Decision of the
District Court of Appeals for the
Second District of Florida
-4-

Bk 23941 Pg 1987

*

rti

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
MICHAEL JOSEPH EDMONDSON,
Appellant,

v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)
.)

Case No. 2D14-107

•"O-.

£
*
&

Opinion filed January 27, 2016.
■ > ', - <r>

Appeal from the Circuit Court for
Hillsborough County; William E. Fuente,
Judge.

a'

'"^<2

‘IS,.

r*vtl

t

CO

\_j
O 'rJ c-

Howard L. Dimmig, II, Public Defender,
and Matthew D. Bernstein, Assistant Public
Defender, Bartow, for Appellant.
Pamela Jo Bondi, Attorney General,
Tallahassee, and Wendy Buffington,
Assistant Attorney General, Tampa, for
Appellee.

PER CURIAM.
Affirmed.
KHOUZAM, BLACK, and SALARIO, JJ., Concur.

r

INSTRUMENT#: 2016100844, BK: 23941 PG: 1986 PGS: 1986 - 1987 03/16/2016 at
08:07:27 AM,
DEPUTY CLERK:MTERRELL Pat Frank,Clerk of the Circuit Court
Hillsborough County

mi

**

m

MANDATE
from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

SECOND DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION;
YOU ARE HEREBY COMMANDED THAT SUCH FURTHER PROCEEDINGS
BE HAD IN SAID CAUSE, IF REQUIRED, IN ACCORDANCE WITH THE OPINION OF
THIS COURT ATTACHED HERETO AND INCORPORATED AS PART OF THIS ORDER,
AND WITH THE RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.
WITNESS THE HONORABLE CRAIG C. VILLANTI CHIEF JUDGE OF THE
DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA, SECOND DISTRICT, AND
THE SEAL OF THE SAID COURT AT LAKELAND, FLORIDA ON THIS DAY.
DATE: February 29, 2016

..

SECOND DCA CASE NO. 2D14-107
COUNTY OF ORIGIN:

-x-> t—
ts>.

Hillsborough

MICHAEL JOSEPH
EDMONDSON

"T\

i
os

LOWER TRIBUNAL CASE NO. 13-CF-9477
CASE STYLE:

£
“o'
^

(-5

\

.

■Ti

<r>

v. STATE OF FLORIDA "1
*

<2

—
^

Mary Elizabeth Kuenzel
Clerk
cc: (Without Attached Opinion)
Wendy Buffington, A.A.G.

Matthew Bernstein, A.P.D.

Michael Joseph Edmondson

mep

A

